-                       -c                         -<   -?   -         -
                                                                                                                                                      -   -   -

f                                             Il
                                              i                                                                                                   I



                                                                                       NATIONAL SCIENCE FOUNDATION
                                      1
                                      I
t                                                                                         4201 WILSON BOULEVARD
                                          I                                              ARLINGTON, VIRGINIA 22230

                                     I
                                      I
                                      l



                                     I!
                                                            OFFICE OF
                                                        INSPECTOR GENERAL




                             I/                     MEMORANDUM
                                 i

                            /j                      Date:            May 30,2000



                                                                                                               #
                                                                          ICrB0(?0b~26
                             1
                                                    To:              File #I98090
                            11
                        I                           From:.    .
                                                                                                    spector General for Investigations       ,>




                    ;I
                    I
                        I
                                                    Re:              Case Close-out:

                    I

                    I                               Background




                                                    written confirmation to




                I
                                                    Investigation
                                                                                                                                        (1
                I
                                                             A joint FAA and NSF-OIG determined that                was unable to produce the
            /I                                                             and that he was aware of this             received the payment from
                                                                                   he would not be able to produce this aircraft beLause he had
                                                                                nor a production certificate from th          for this aircraft. A
        /I                                          type certificate reflects the design, engineering, and testing per ormed to ensure the safety
            1                                       of a particular model aircraft. A production certificate is required for the droduction
                                                    facility for the particular aircraft, and indicates that t          cturing and assembly
        1                                                                              controls. At the time             aid for the GT500/9 12,
        1                                                                                     the process re              tain the tyie certificate.
    /I
                                                                                  ad been evicted fiom its facility in September 1997, and had
    I

    I
                                                                                                                                   /I

                                                              (703) 306-2100 OIG Anonymous Hotline (800) 428-2 189 http://www.nsf.gov/oig/oig
                                                                                   Electronic mail hotline: oig@nsf.gov
                                                                                                                                  I1
                                                                                I)
never applied for a production certificate  . its- new facility. ~ l s o , i not
                                       . . for                                d have
the necessary staff for production of thls a~rcrait.
                                               ad distributed a price list




build the airplane.

Findings

                                                                                     m
                                                                           I,



       Based on evidence gathered during this investigation, we determined tha
       had committed the following violations:



                  U.S.C. 1001.
                                         a
               A. Knowingly and willlll ubmitted a false statement of material fact
                  that he could produce            certified GT500/912 in violation of 18

               B. Caused a fax request for $21,747.50 to be transmitted by wire in
                  furtherance of a fraudulent scheme, in violation of 18 U.S.C. 1343.
               C. Caused the U.S. mailing of a check for $2 1,747.50 in furtherance of a
                  fraudulent scheme, in violation of 18 U.S.C. 1341.
               D. Submitted a false claim for payment by the United States of
                  $2 1,747.50 for a      9 certified GT50019 12 he knew he could not
                  produce, in violat~ono 3 1 U.S.C. 3729.
